   DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                         Washington, D.C. 20201




September 9, 2010

TO:            Yvette Sanchez Fuentes
               Director, Office of Head Start
               Administration for Children and Families


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Results of Limited Scope Review at District of Columbia Public Schools
               (A-03-09-00366)


The attached final report provides the results of our limited scope review at District of Columbia
Public Schools. This review was requested by the Administration for Children and Families,
Office of Head Start, as part of its overall assessment of Head Start grantees that have applied for
additional funding under the American Recovery and Reinvestment Act of 2009.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly this report
will be posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to
contact me at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to
report number A-03-09-00366 in all correspondence.


Attachment
Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




 RESULTS OF LIMITED SCOPE
  REVIEW AT DISTRICT OF
 COLUMBIA PUBLIC SCHOOLS




                   Daniel R. Levinson
                    Inspector General

                    September 2010
                     A-03-09-00366
                    Office of Inspector General
                                      http://oig.hhs.gov


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health & Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social, and
other services to enrolled children and families. Within the U.S. Department of Health & Human
Services, the Administration for Children and Families (ACF) administers the Head Start
program.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation, and enhance transportation services. An additional $356 million was
allocated to award all Head Start grantees a nearly 5 percent cost-of-living increase and bolster
training and technical assistance activities.

The District of Columbia Public Schools’ (DCPS) Head Start program is a child development
and family program serving children and their families residing in the District of Columbia (the
District). At the time of our audit, the program served 1,081 children under a direct grant from
ACF and an additional 701 families as a delegate agency of the United Planning Organization.

Prior to 2007, management of DCPS was the responsibility of the District of Columbia Board of
Education. However, the District’s Public Education Reform Amendment Act of 2007
transferred the day-to-day management of DCPS from the Board of Education to the Mayor's
office as a cabinet-level agency. Within the Mayor’s office, responsibility for DCPS was aligned
under the Office of the Chancellor with oversight of the DCPS Head Start program the
responsibility of the Office of the Chief Academic Officer.

The DCPS Head Start program is funded primarily through Federal and local government grants.
For the period September 2007 through August 2009, ACF awarded grant funds totaling
$13,234,334 to the DCPS Head Start program. In addition, the DCPS Head Start program has
been awarded $1,000,000 in Recovery Act grant funding for fiscal year 2010.

OBJECTIVE

The objective of our limited scope review was to assess the DCPS Head Start program’s capacity
to manage and account for Federal funds and to operate its program in accordance with Federal
regulations.

SUMMARY OF FINDINGS

Based on our assessment, we believe the DCPS Head Start program currently does not have the
capacity to manage and account for Federal funds and is not capable of operating a Head Start


                                                 i
program in accordance with Federal regulations. Our review identified weaknesses relating to
the DCPS Head Start program’s financial management system and program governance.

RECOMMENDATION

In determining whether the DCPS Head Start program should be awarded additional Head Start
and Recovery Act grant funding, we recommend that ACF consider the information presented in
this report in assessing the DCPS Head Start program’s ability to account for and manage
Federal funds and to operate a Head Start program.

GRANTEE’S COMMENTS

In its comments on our draft report, DCPS described the actions it has taken to correct the
weaknesses identified in this review and stated that it has been working with ACF over the past
6 months to develop a plan of action that will strengthen the DCPS Head Start program. DCPS’s
comments are included as the Appendix. We have excluded the attachments accompanying
DCPS’s comments because of their volume.




                                              ii
                                                  TABLE OF CONTENTS

                                                                                                                                  Page

INTRODUCTION....................................................................................................................1

          BACKGROUND ...........................................................................................................1
              Head Start Program ............................................................................................1
              District of Columbia Public Schools Head Start Program. ................................1
              Federal Requirements ........................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................2
               Objective ............................................................................................................2
               Scope ..................................................................................................................2
               Methodology ......................................................................................................3

FINDINGS AND RECOMMENDATION.............................................................................3

          INADEQUATE FINANCIAL MANAGEMENT SYSTEM ........................................3
               Unallowable Costs .............................................................................................3
               Reporting Errors.................................................................................................4
               Unsupported Expenses .......................................................................................4
               Untimely Submissions of Financial Status Reports ...........................................4

          INSUFFICIENT PROGRAM GOVERNANCE ...........................................................5

          RECOMMENDATION .................................................................................................5

          GRANTEE’S COMMENTS ..........................................................................................6

APPENDIX

          GRANTEE’S COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Head Start Program

Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social, and
other services to enrolled children and families. Within the U.S. Department of Health & Human
Services, the Administration for Children and Families (ACF), Office of Head Start (OHS),
administers the Head Start program.

The Head Start program provides grants to local public and private nonprofit and for-profit
agencies to provide comprehensive child development services to economically disadvantaged
children and families, with a special focus on helping preschoolers develop the early reading and
math skills needed to be successful in school. Head Start programs engage parents in their
children’s learning and emphasize parental involvement in the administration of local Head Start
programs.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation, and enhance transportation services. An additional $356 million was
allocated to award all Head Start grantees a nearly 5 percent cost-of-living increase and bolster
training and technical assistance activities.

District of Columbia Public Schools Head Start Program

The District of Columbia Public Schools’ (DCPS) Head Start program is a child development
and family program serving children and their families residing in the District of Columbia (the
District). At the time of our audit, the program served 1,081 children under a direct grant from
ACF and an additional 701 families as a delegate agency of the United Planning Organization.

Prior to 2007, management of DCPS was the responsibility of the District of Columbia Board of
Education. However, the District’s Public Education Reform Amendment Act of 2007
transferred the day-to-day management of DCPS from the Board of Education to the Mayor's
office as a cabinet-level agency. Within the Mayor’s office, responsibility for DCPS was aligned
under the Office of the Chancellor with oversight of the DCPS Head Start program the
responsibility of the Office of the Chief Academic Officer.

The DCPS Head Start program is funded primarily through Federal and local government grants.
For the period September 2007 through August 2009, ACF awarded grant funds to the DCPS
Head Start program totaling $13,234,334. In addition, the DCPS Head Start program has been
awarded $1,000,000 in Recovery Act grant funding for fiscal year 2010.


                                                 1
Federal Requirements

Office of Management and Budget (OMB) Circular A-87, “Cost Principles for State, Local and
Indian Tribal Governments,” found at 2 CFR pt. 225, provides requirements governing the
allowability of costs claimed for reimbursement under Federal grants, contracts, and other
agreements with State and local governments. Appendix A (2 CFR pt. 225 App. A, § C.1.h)
specifies that allowable costs must not be included as a cost, or used to meet cost sharing or
matching requirements, of any other Federal award

The Standards for Financial Management Systems found at 45 CFR § 92.20, establish
regulations for grantees to maintain financial management systems. Grantees’ financial
management systems must provide for accounting records, including cost accounting records,
that are supported by source documentation (45 CFR § 92.20(b)(6)). Grantees’ financial
management systems must also provide effective control over and accountability of all funds,
property, and other assets so that recipients adequately safeguard all such assets and assure they
are used solely for authorized purposes (45 CFR § 92.20(b)(3)).

Pursuant to 45 CFR § 92.41(b)(4)) recipients shall submit Standard Form 269, Financial Status
Report, no later than 30 days after the end of each specified reporting period for quarterly and
semi-annual reports and 90 calendar days for annual and final reports.

Section 642(c) of the Head Start Act requires grantees to establish and maintain a formal
structure for program governance, including a governing body with legal and fiscal responsibility
for administering and overseeing the Head Start agency, including the safeguarding of Federal
funds, and a policy council responsible for the direction of the Head Start program, including
program design and operation. Section 642(d)(2) requires grantees to ensure the sharing of
accurate and regular information for use by the governing body and policy council about
program planning, policies, and Head Start agency operations.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our limited scope review was to assess the DCPS Head Start program’s capacity
to manage and account for Federal funds and to operate its program in accordance with Federal
regulations.

Scope

We performed this review in response to a June 22, 2009, limited scope request from ACF.
Therefore, we did not perform an overall assessment of the DCPS Head Start program’s internal
control structure. Rather, we reviewed only the internal controls that pertained directly to our
objectives. Our review period was September 1, 2007, through August 31, 2009.

We performed our fieldwork at the DCPS Head Start program’s administrative office in the
District during July and August 2009.

                                                 2
Methodology

To accomplish our objectives, we:

   •   reviewed relevant Federal laws, regulations, and guidance;

   •   reviewed the DCPS Head Start program’s Head Start application and supporting
       documentation;

   •   reviewed Federal Head Start grant award documentation to determine the DCPS Head
       Start program’s total Head Start and Recovery Act Federal funding;

   •   interviewed the DCPS Head Start program’s personnel to gain an understanding of its
       internal controls and its accounting system controls;

   •   reviewed the DCPS Head Start program’s fiscal procedures related to procurement,
       accounting documentation and preparation of financial reports; and

   • reviewed the DCPS Head Start program’s Board and Policy Council composition and
       meeting minutes.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATION

Based on our assessment, we believe the DCPS Head Start program currently does not have the
capacity to manage and account for Federal funds and is not capable of operating a Head Start
program in accordance with Federal regulations. Our review identified weaknesses relating to
the DCPS Head Start program’s financial management system and program governance.

INADEQUATE FINANCIAL MANAGEMENT SYSTEM

Unallowable Costs

The OMB cost principles (2 CFR pt. 225) provide requirements for the allowability of costs
claimed for reimbursement under Federal grants, contracts, and other agreements with State and
local governments. Appendix A (2 CFR pt. 225 App. A, § C.1.h) specifies that allowable costs
must not be included as a cost, or used to meet cost sharing or matching requirements, of any
other Federal award

The DCPS Head Start program used some Head Start grant funds to cover costs under another
Federal grant. Our review identified $156,535 of the $6,617,167 in Head Start grant expenses

                                               3
reported on the final fiscal year 2008 Financial Status Report as unsupported. DCPS Head Start
program officials stated that the $156,535 represented a decrease in cash revenue as a result of
overdrawn funds returned to the Department of Education.

Reporting Errors

Pursuant to 45 CFR § 92.20(b)(6),Grantees’ financial management systems must provide for
accounting records, including cost accounting records, that are supported by source
documentation

DCPS Head Start program officials provided electronic spreadsheets to support the expenditures
reported on the February 2009 Financial Status Report. The spreadsheets showed $184,447 in
administrative costs and $4,728 in training costs that had not been reported. DCPS Head Start
program officials could not explain the differences between the electronic spreadsheets and the
amounts reported on the February 2009 Financial Status Report. In addition, DCPS Head Start
program officials could not provide general ledger extracts to support any of the administrative
and training costs listed on the electronic spreadsheets or reported on the February 2009
Financial Status Report.
Unsupported Expenses

Pursuant to 45 CFR § 92.20(b)(6), Grantees’ financial management systems must provide for
accounting records, including cost accounting records, that are supported by source
documentation.

Our review found that the DCPS Head Start program could not provide support for all of its
reported salary expenses. The DCPS Head Start program listed the same employee in its
budgeted staffing plan as both the Nutrition Coordinator and the Nutrition Assistant. The plan
listed an expected annual salary of $52,529 for the Nutrition Coordinator and $36,352 for the
Nutrition Assistant. Human Resources records list the employee’s salary, based on the calendar
year, as $52,529. As of August 31, 2009, only 8 months into the calendar year, the employee’s
gross salary paid to date was $49,446 or 94 percent of the employee’s stated annual salary. The
DCPS Head Start program noted that the employee holds a position with another State agency in
addition to her position with the DCPS Head Start program. However, the timesheets submitted
by the DCPS Head Start program listed only time allocated to the Head Start program and
officials were unable to provide documentation supporting an allocation of the employee’s time
to the other State agency.

Untimely Submissions of Financial Status Reports

Pursuant to 45 CFR § 92.41(b)(4)) recipients shall submit the Financial Status Report no later
than 30 days after the end of each specified reporting period for quarterly and semi-annual
reports and 90 calendar days for annual and final reports.

The DCPS Head Start program did not always submit Financial Status Reports to ACF in a
timely manner. The DCPS Head Start program submitted the semiannual report ending February
2008, 241 days after it was due, and submitted the semiannual report ending August 2008, 57

                                                4
days after it was due. In addition, the annual report for fiscal year ending August 2008 was
submitted 80 days after it was due.

INSUFFICIENT PROGRAM GOVERNANCE

Pursuant to Section 642(c) of the Head Start Act, grantees must establish and maintain a formal
structure for program governance, including a governing body with legal and fiscal responsibility
for administering and overseeing the Head Start agency, including the safeguarding of Federal
funds, and a policy council responsible for the direction of the Head Start program, including
program design and operation. Section 642 (d)(2) requires grantees to ensure the sharing of
accurate and regular information for use by the governing body and policy council about
program planning, policies, and Head Start agency operations.

The DCPS Head Start program did not have a functioning governing body (Board). During
fiscal years 2008 and 2009, the DCPS Head Start program’s efforts to establish Board oversight
of Federal Head Start funds were not successful. The Office of the Chancellor appointed a three-
person Board in March 2008; however, the Board met only once and was formally abolished on
July 31, 2009. Based on concerns about Board oversight after the transfer to the Mayor’s office,
OHS formally requested the status of the Board on two separate occasions during fiscal year
2008. After receiving an inadequate response from DCPS, OHS notified the Mayor in
September 2008 that there was inadequate Board oversight of Federal Head Start funds. In its
fiscal year 2009 Continuation Grant Application, the DCPS Head Start program reported that a
new Board had been appointed.

On July 31, 2009, the Chancellor welcomed four individuals to the new Board and informed
them that the first orders of business would be to elect officers and adopt bylaws. At the time of
our review, a date for the first meeting had not yet been established.

The DCPS Head Start program established a policy council (Council) and reported in its fiscal
year 2009 Continuation Grant Application that Head Start program management would
collaborate with the Council to ensure the high quality of the program. However, our review of
the Council meeting minutes determined that the collaboration between the Council and Head
Start Program Management was minimal and concluded that DCPS Head Start program officials
have not provided the Council with all the required on-going, periodic reporting about program
planning, policies and operations mandated in the Head Start Act. In addition, the Council has
only met 10 times during the past 2 fiscal years, while the Council’s bylaws call for monthly
meetings. The Council has not been able to report on key decisions to the Board, due to the
absence of a Board.

RECOMMENDATION

In determining whether the DCPS Head Start program should be awarded additional Head Start
and Recovery Act grant funding, we recommend that ACF consider the information presented in
this report in assessing the DCPS Head Start program’s ability to account for and manage
Federal funds and to operate a Head Start program.


                                                5
GRANTEE’S COMMENTS

In its comments on our draft report, DCPS described the actions it has taken to correct the
weaknesses identified in this review and stated that it has been working with ACF over the past
6 months to develop a plan of action that will strengthen the DCPS Head Start program. DCPS’s
comments are included as the Appendix. We have excluded the attachments accompanying
DCPS’s comments because of their volume.




                                              6
APPENDIX
                                                                                                          Page 1 of2


                      APPENDIX: GRANTEE COMMENTS 





DCPS Response:
DCPS continued it s efforts to increase t he number of students served and the direct services provided
to its preschool and prekindergarten students. DCPS has restructured its Office of Head Start by to
enable it to serve an additional 3,000 stud ents through the Head Start program, as previously
(lnnounced. As DCPS continues to make strides to address the program deficiencies, we have worked
with U.S. Department of Health and Human Services (HHS) over the past six months to develop a plan
of action that will stre ngthen the DCPS Head Start program and ensure continued fund ing for the
child ren currently served. DCPS has received approval from HHS to transform how Head 513rt
operates in the school district, namely, to Implement the DCPS Head Start school-wide model. Since
January 2010, plans have been underway to implement the school-wi de model when classes resume.
The school-wide model addresses chronic deficiencies in all program areas, and expands access to
Head Start comprehensive services to more children. M ost importantly, the new model will allow
DCPS to provide services to 4, 800 childre n. This means next year 175 additional classrooms in 16
schools will have wrap-around services, and for the fi rst tim e all children who quality for Head Start
will now benefit from mental health, family support, health and other services for students with
special needs. last year, approximately 1,800 students were served In the Head Start program.

Staffing changes were necessary to ensure that OCPS co uld accommodate the expanded number of
students served and to Improve services to meet com pliance. To support the additional students and
strength en the direct services provided to students, DCPS has eliminated positions that do not directly
support students and established new positions t o st rengthen the areas of community engagement,
parent education and invol vement, and teacher support. Positions will now requ ire new education
requirements which will ensure that professionally-trained staff provide needed social services,
counseli ng, and parent educat ion services as well as, support schools in implementing early childhood
best practices.

Thi s past year, a new Director of Head Start Program Operations with solid experience in the areas of
compliance and management systems was hired. New managers with increased academic and Head
Start experience have been recruited to strengthen t he capaci ty of the team and are committed to
implement the School-Wide model while remaining compl iant with the Head Start Act and the
Performance Standards.

Unallowable Cost
The DCPS Office of the Chief Financial Officer has instituted a management overhaul of the budget
and accounting oper ations of DC Public Schools. An experienced m anagement team, composed of an
interim Chief Financial Officer, Budget Director and Non-Revenue Manager, was installed to
strengthen t he financia l management and oversight of an agency responsible for more than $1 billion
dollars in local, federal and private fu nding. This team has worked diligently to address the repeated
weaknesses and non-compliance findings in all federal programs, inclusive of the Head Start grant.

Unsupported Expenses
The paVroli repor ts provided to the OIG au dit team repres ented all expenditures for individual
employees from the former payroll system, CAPPS. Th e error In noting the position t itle occurred
beciluse the staffing plan was printed incorrectly and t he employee title row was shifted. Also, as
explained to t he auditors, this Nutrition Coordin ator works for the University of the District of
Columbia as a part-time Inst ructor from 6 to 9 pm, after her Head Start tour-of-duty. The CAPPS
system has been rep laced with PeopleSoh an d staff responsible for reporting have increased their
attention to detail to reduce errors.
                                                                                                           Page 2 of2




Reporting Errors
At this t ime, a separa te code for Administrative Expenses for the Head Start grant has been
es tabli shed on the DC System of Accounting and Reporting. Spreadsheets will be util ized aloni with
electronic data to substantiate the costs reported on the Sf-269 Financial Status Reports. Moreover,
the new financial team has direded its efforts toward financial analysis lind training on new
accounti ng reportlna tools such as CfO Salve.

Untimely Submissions of f inancial Status Reports
ACE Region III has ac knowledged the receipt of the last five Financlal Status Reports in a timely
fa shion. Therefore, this condition has been fully corrected with internal checks and bahmces from 

multiple offices from the Chancellor's leadership team, Academic Services and the Office of the Chief 

Fin ancial Officer. 


Grant accounting has been hampered by the lack of real-time reporting for payroll expenditures. This 

long·standing probl em has now been addressed with the fu ll implementation of t he PeopleSoft 

system which updates available funding each pay period. Also, prior to the full implementation, an 

extensive data - clean·up" was conducted that certified each employee charged or partially charged to 

the Head Start grant. Charges were reversed to remove any employee Inappropriately attributed to 

the grant. 


insufficient Program Governance 

DCPS Head Start has been engaged in ongoing discussion with ACF regarding the development of by· 

laws that appropriately address the unique structure of DCPS w ith a politically appointed Chancellor 

who has no over sight by a school board. ACF recently found (see a!tached letter of July 15, 2010) that
decision- maklns authority now rests with the Chancellor, who has been determined to      ~ meet   the
general requirements of the governing body outlined in the Act.· Th is decision enables DCPS to move
forward In developing policies and procedures outlining how the sovernance tenets in the Act will be
addresse d.


If you have any questions or require additional information regarding the attached response, please feel
free to contact me at the number or email listed below.


Sharon R. Artis
Director, Office of Compri~ neo

Distrlct of Columbie Public Sehoojs
Office of the Chanoellor
1200 FI~1 Slfee1. NE
Washi nglon. DC 20002
T 202.442.5658
~ 202 .516.111"',,,,,,~



On March 1, 2010 DC Public Schools Central Offlco moved to 1200 Flr.t Sl HE, Washington, DC 20002. All
phone numbsr. will remain the same.
